                                                     ADVISORY




  MANAGEMENT ADVISORY
  REGARDING OFFICE OF INSPECTOR GENERAL’S
  REVIEW OF THE INTERNAL CONTROLS FOR THE
  OFFICE OF SPECIAL TRUSTEE FOR AMERICAN INDIANS




   This report contains information that has been
redacted pursuant to 5 U.S.C.§§ 552(b)(5) and (b)(6)
         of the Freedom of Information Act.



 Report No.: ZZ-EV-OST-0001-2012                   December 2011
                OFFICE OF
                INSPECTOR GENERAL
                U.S.DEPARTMENT OF THE INTERIOR

                                                                                 DEC 0 8 2011
Memorandum

To:              David J. Hayes
                 Deputy Secretary of the Interior

From:            Mary L. Kendall / 1
                 Acting Inspector Genera

Subject:         Management Advisory Regarding OIG Review of OST Internal Controls

        The principal deputy special trustee's (PDST) draft memorandum titled "FY 2011
Annual Assurance Statement on Internal Controls" made several assertions concerning
insufficient internal controls in the Office of the Special Trustee for American Indians (OST). In
October, the Department requested that the Office of Inspector General (OIG) conduct a review
of six assertions related to OST' s Office of Trust Funds Investments (OTFI). In our audit report
on the relevant internal controls (report number ZZ-EV-OST-0001-2012), we concluded that
these six assertions were invalid.

        During our fieldwork, however, we identified several additional potential issues. Because
the issues were outside the scope of our audit, we did not fully review them in accordance with
generally accepted Government accounting standards. Nevertheless, these matters point to
possible future internal control problems if they are not fully reviewed and addressed. We are
bringing these issues to your attention so that you can look into them further and take any
necessary action.

Changes to OTFI Policy and Internal Controls

        The PDST has authorized the removal of several key internal controls from the OTFI
policy and desk operating procedure (DOP), both signed on September 26, 2011. (These controls
were still in place, however, during FY 2011 , the timeframe under review in our audit.)
Specifically, he authorized these changes-

      •   The revised OTFI policy removed the requirement to purchase only securities with a
          rating of AA or better. The policy now does not require a security to be rated in order to
          be purchased. OST limits investment purchases to "securities that are issued or
          guaranteed by the U.S. Government and its agencies or instrumentalities." One of the
          world' s largest and most liquid markets is comprised of debt securities issued by the U.S.
          Treasury, U.S. Government agencies, and U.S. Government sponsored enterprises
          (GSEs), which are also sometimes referred to as Federal agencies or Federally sponsored
          agencies. U.S. Treasury securities are considered to have the bond market's lowest risk
          because they are guaranteed by the U.S . Government's "full faith and credit." Unless




                                  Office of Inspector General I Washington, DC
           explicitly stated, however, GSE debt securities are not guaranteed by the Federal
           Government. In general, debt securities issued by GSEs are considered to be of high
           credit quality; nevertheless, the lack of a Government guarantee makes it even more
           important to know the credit rating of securities before purchasing them.
       •   The revised DOP removed the requirement to obtain approval from the director of OTFI
           before a purchase is finalized. Now the policy simply requires the director to review and
           approve the purchase after it is completed. Therefore, it is possible for an inappropriate
           security to be purchased.
       •   The revised OTFI policy removed the requirements to maintain a $10 million balance in
           cash or Treasury “overnighter” and to limit the percentage of thinly traded securities for
           the Individual Indian Money portfolio. If a sufficient balance is not maintained in cash,
           payouts to account holders could force OST to sell securities at a loss. In addition, a high
           percentage of thinly traded securities could prevent OST from promptly selling securities
           to cover unexpected payouts.
       •   The revised OTFI policy has restricted membership in the Investment Management
           Committee 1 to the OTFI staff and the PDST. Even fiduciary trust officers, who work
           directly with the account holders to determine portfolio objectives, are not included. Such
           restricted membership, coupled with closed meetings with no access to meeting notes,
           limits the information available to investment officers as they determine whether the
           portfolio is structured to meet the needs of the account holders. The new committee can
           also make any changes to the investment policy based on a vote; essentially, because
           OTFI makes up the committee, OTFI can now write or revise its own policies without
           impartial review and comment.
       •   The revised DOP removed the requirement to obtain three bids to purchase a security on
           the secondary market. Newly issued (or primary market) securities did not, and should
           not, require three bids because these securities are usually sold at (or close to) full face
           value. Securities on the secondary market, however, include a markup consisting of the
           dealer’s costs and profit. Each firm establishes its own price (within regulatory
           guidelines) which will vary depending on the type of security, size of the transaction, and
           the services the broker provides; therefore, the prudent customer should compare several
           prices before making a purchase.
       •   The revised DOP removed the requirement to complete the Bloomberg Global Product
           Certification Program. Certification ensures OTFI investment officers fully understand
           the available features of the Bloomberg investment analysis product and have all the
           information they need to complete the best investment transactions for the account
           holders.

        We also noted that a section describing the Secretary’s and OST’s responsibilities has
been added to the OTFI policy, but the responsibilities are incomplete. Specifically, the policy
states that the “Secretary of Interior is responsible for the investment of all Indian trust funds”
and OST “is responsible for the investment management of tribal monies, Individual Indian
Monies, and special funds entrusted to the Secretary of the Interior.” We are concerned that, by
focusing only on the investment aspect of the trust responsibilities and not accounting for and

1
    The Investment Management Committee was previously called the Portfolio Review Committee.

This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may contain information
that is protected from disclosure by law. Distribution and reproduction of this document is not authorized without the express
written permission of the OIG.

                                                               2
reporting fund balances, controlling account receipts and disbursements, or performing account
reconciliations, the PDST may not be giving sufficient emphasis to the other duties of the
Secretary and OST.

        Further, the updates to both the OTFI policy and DOP did not go through the required
evaluation process. OST has a standard procedure, implemented because of the Cobell lawsuit,
defining how policies and procedures must be drafted, reviewed, updated, and released. Proposed
policies are reviewed by the deputy trustees and other senior leadership to identify and correct
any unintended consequences the changes may have on other OST components or divisions. The
procedure also calls for the release of new policies three times a year and includes training to
ensure all OST staff members are aware of and understand any new requirements. The new
policy and DOP did not go through either the review or the release processes. Therefore, the
changes described above could have unintended consequences in components outside OTFI.

Communication Breakdowns

        In addition to the limited communication surrounding the policy and DOP updates, we
identified other indicators of significant communication problems within OST. These problems
appear to be centered around the PDST. The deputy trustee for trust accountability qualified her
statement of assurance letter (SAL) based on these issues, stating: “Lack of communication from
the Office of the Principal Deputy Special Trustee and the transfer, administrative detail and
elimination of key support staff with little or no notice impacted the Office's ability to meet
performance goals and program objectives.” As an example, the deputy trustee for trust services
was unaware that the PDST had changed the Trust Services SAL from unqualified to qualified
until we asked him questions related to the qualification as part of our audit.

        Without open interaction between management and staff, miscommunications are
difficult to identify and correct. The PDST, however, has not granted his deputy trustees’
numerous requests for meetings to clarify his directions and requests. As a result,
miscommunications often go undetected or unaddressed. For example, the associate principal
deputy special trustee (APDST) told us that after the erroneous purchase of an unrated security in
June 2011, the PDST emailed her questions about the incident. In his email, the PDST referred to
a “system.” While the APDST interpreted system to mean a system of controls, the PDST used
the word to mean a computer system. No one in OST understood that the PDST and the APDST
were referring to two different types of system until we uncovered the misunderstanding during
our review.

        To further complicate communication, the PDST is also bypassing his deputy trustees
and directly managing his section directors. While the directors know their own areas, they are
not always fully informed of the impact their work may have on other areas. By not
communicating with senior managers who understand the various interdependencies and
conflicts among offices, it appears that the PDST is making decisions without having all the
necessary information or knowing all potential consequences.



This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may contain information
that is protected from disclosure by law. Distribution and reproduction of this document is not authorized without the express
written permission of the OIG.

                                                               3
        The PDST has been changing the reporting structure of OST by moving offices out from
under the deputy trustees and having the offices report directly to him. By doing so, the PDST
risks stove piping the organization and increasing communication problems. This is especially
true when work in one area affects work in another area.

       The PDST is also moving offices between organizational elements. For example, he
moved the Risk Management group from Trust Accountability to the Office of Trust Review and
Audit (OTRA). While the PDST indicated he moved Risk Management to ensure the
independence of their work, he has potentially compromised the ability of OTRA to conduct
reviews in accordance with generally accepted government auditing standards (GAGAS).
GAGAS specifically precludes an audit organization from auditing its own work. Because the
Risk Management group works with managers to define the internal controls for all of OST,
OTRA would be prevented from auditing OST’s internal controls because it would be
instrumental in defining the controls.

Incomplete or Inaccurate Information Used in Decision Making

        The PDST is making decisions based on incomplete, inaccurate, and sometimes
misleading information. For example, the PDST referenced both OTRA’s final November 1,
2011 report, “Audit of Internal Controls in the Office of Trust Funds Investments (OTFI),” and
the draft iStat report when talking with us about his concerns related to internal controls and
TFAS. Both of these reports, however, contained inaccuracies.

       During our audit fieldwork, we examined OTRA’s audit report as well as selected
supporting work papers, but the report’s quality was such that we were unable to rely on it for
our audit. For example, we found—

    •    Factual inaccuracies. The work papers we reviewed support that the actual value of the
         FY 2011 investment transactions was about $417 million. The report, however, stated
         that the total value of the FY 2011 investment transactions was just over $441 million—a
         major discrepancy.
    •    Misleading information. Although OTRA stated that “OTFI lacks internal controls which
         would be in place in a typical industry standard trust and custody operation,” the work
         papers indicated that the PDST actually defined the “typical industry standard” for
         OTRA. The report stated OTRA followed GAGAS standards, but the office did not
         conduct an independent assessment to determine whether the PDST’s input was correct.
    •    Questionable work quality. SEI referred to an OST employee in its explanation of events
         surrounding an erroneous full call made in FY 2011. While researching the issue,
         however, OTRA made only a superficial effort to locate the employee, who had changed
         her last name when she got married. OTRA reviewed OST’s employee directory and,
         when the individual was not listed under her maiden name, concluded that she was not an
         OST employee. OTRA made this conclusion even though it had actually interviewed the
         individual during the course of its review.



This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may contain information
that is protected from disclosure by law. Distribution and reproduction of this document is not authorized without the express
written permission of the OIG.

                                                               4
        During our audit fieldwork, we also examined the draft “iStat Report Office of the
Special Trustee (OST) Trust Financial Accounting System (TFAS)” dated September 20, 2011.
The draft report contained information that was confusing and that appeared to be beyond the
scope of a review of the system. Based on interviews with the iStat team, we were told that the
iStat report was being updated to correct misleading information about TFAS. Rather than
waiting for the final report, however, the PDST has been using the draft iStat report, which states
that “improvement is needed,” to make management decisions regarding the need he perceives
for an order management system (OMS) for OTFI and a new trust and custody provider.

Inappropriate Contracting Actions

       During the course of the review, we received several allegations of inappropriate
contracting actions and pending actions. Numerous sources, from both inside and outside of
OST, alleged the following—

    •    The PDST is interested in purchasing and implementing an OMS for OTFI. While OST
         talked with its contract office about the feasibility of receiving a demonstration of the
         Bloomberg Asset and Investment Manager (AIM) system, OST’s contact with
         Bloomberg does not appear to have been limited to a demonstration. The director of
         OTFI provided us with documentation he obtained from Bloomberg that not only outlines
         the AIM system’s capabilities, but also identifies how the system would interface with
         TFAS as well as the cost of implementing it and designing the interface. Such extensive
         contact with a company without going through formal contracting channels could lead to
         future allegations of a lack of required competition, unfair advantage, and sole-source
         contracting.
    •    The contracting officer has concerns about a request for bid (RFB) the PDST submitted
         in an attempt to contract with a consultant who would evaluate the management of the
         trust funds, with an emphasis on trust fund investment operations, processes, and
         systems. The RFB’s statement of work (SOW) includes assisting with the implementation
         of a new system to correct deficiencies; however, there are no deficiencies identified that
         would require a new system. In addition, the PDST has directed the contracting officer
         not to discuss the SOW or the RFB with program personnel / technical experts. The
         contracting officer has also been told that the program personnel / technical experts will
         not be included on the technical panel that will evaluate any bids received. Without these
         experts involved in the SOW writing and bid evaluation processes, the government may
         not obtain the necessary services or receive full value for the money it spends.




This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may contain information
that is protected from disclosure by law. Distribution and reproduction of this document is not authorized without the express
written permission of the OIG.

                                                               5
Recommendation

       OST processes a limited number of investment transactions per year. Therefore, before
spending time and money to evaluate an OMS, OST should do a complete review of TFAS. The
review should identify all available features and determine which of them (such as the automated
approval feature) should be enabled and which should be disabled.

Conclusion

OST fulfills a vital function within DOI, satisfying the Secretary’s responsibilities to properly
invest, account for, and manage Indian funds. The concerns we identified during our audit
fieldwork have the potential to create difficulties for DOI; they could weaken the foundation of
trust between the Secretary’s office and the tribes that depend on the proper stewardship of their
assets.

We have provided this information for your evaluation and action, as you determine appropriate,
to help prevent serious problems in the future. If you have any questions, please do not hesitate
to call me at (202) 208-5745.

cc:      DOI Chief of Staff
         Assistant Secretary for Policy, Management and Budget
         Deputy Assistant Secretary for Budget, Finance, Performance, and Acquisitions




This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may contain information
that is protected from disclosure by law. Distribution and reproduction of this document is not authorized without the express
written permission of the OIG.

                                                               6
